Audit Report

Cooperative Agreement Administered by the Children's Advocacy Center for the Pikes Peak RegionColorado Springs, Colorado

Report No. GR-60-04-002


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Western Regional Children's Advocacy Center cooperative agreements awarded by the U.S. Department of Justice (DOJ), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the Children's Advocacy Center for the Pikes Peak Region (CAC), Colorado Springs, Colorado.  The purpose of these awards was to assist communities in establishing and strengthening children's advocacy centers and multi-disciplinary teams to address the needs of child victims of abuse.  Between December 2000, and February 2003, the CAC was awarded a total of $1,124,343 to provide training and technical assistance to communities in the western region.
We tested the CAC's accounting records to determine if reimbursement claimed for costs under the cooperative agreements were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement.
Our audit revealed unallowable costs were charged to the cooperative agreement.  As a result of the deficiencies identified below, we questioned $17,975 in award funds.1  Specifically, we found:

Salary and fringe benefits for three employees exceeded the approved amount by a total of $14,588.


Salary and fringe benefits totaling $1,589 for one employee were not approved in the Financial Clearance Memoranda.


Unallowable travel costs totaling $1,198 were charged to the award.


Unallowable consultant costs of $600 were charged to the cooperative agreement without prior written approval.


Financial Status Reports were not always accurate.


Financial Status Reports and Categorical Assistance Progress Reports were not always submitted timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978, et seq.  contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.